DECLARATION OF SERVICE BY E-MAIL and U.S. Mail
Case Name:
No.:

Ros v. California
20-8363

I declare:
I am employed in the Office of the Attorney General, which is the office of a member of the
California State Bar, at which member's direction this service is made. I am 18 years of age or
older and not a party to this matter. I am familiar with the business practice at the Office of the
Attorney General for collection and processing of correspondence for mailing with the United
States Postal Service. In accordance with that practice, correspondence placed in the internal
mail collection system at the Office of the Attorney General is deposited with the United States
Postal Service with postage thereon fully prepaid that same day in the ordinary course of
business.
On September 2, 2021, I served the attached APPLICATION TO EXTEND TIME TO
RESPOND TO THE PETITION FOR WRIT OF CERTIORARI by transmitting a true copy
via electronic mail. In addition, I placed a true copy thereof enclosed in a sealed envelope, in the
internal mail system of the Office of the Attorney General, addressed as follows:
John L. Staley
Attorney at Law
16935 West Bernardo Drive
Suite 260
San Diego, CA 92127

I declare under penalty of perjury under the laws of the State of California and the United States
of America the foregoing is true and correct and that this declaration was executed on September
2, 2021, at San Diego, California.
Almeatra Smith
Declarant
SD2021801694

83029196.docx

Almeatra Smith
Signature

